 Department of Health and Human Services

         OFFICE OF

    INSPECTOR GENERAL





UNPAID CHILD SUPPORT AND INCOME

        TAX DEDUCTIONS





                # SERVICE$“G$
            &
          ~+               9

         g                      JUNE  GIBBS BROWN
         4                      Inspector General
         2
         ‘3 $
          %$+,                         DECEMBER 1996
            %’d~~
            >                           OIG-05-95-00070
                          3’
                      OFFICE OF INSPE(XOR GENERAL

The mission of the Ofilce of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is earned out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit SeMces (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of W. Mark Krushat and Joseph Penkrot, Office
of Evaluation and Inspections (OEI), Richard Mencl, Office of Audit Services (OAS) and
Frank Burgess, Internal Revenue Service (IRS). Participating in this project were the
following people:




Michelle Adams
               Marieann Ballerino
     Joseph Green         Gale Smith

Raymond Balandron
            Roy Carter
             Paul Nay             Joan Dean

Natalie Coen
                 Ray Cordahl
            Anita Parker

William Moran
                John Drake
             James Pervisky

Ann O’Connor
                 Jay Gavens
             Leon Skros

                              Clark Geiger

 Department of Health and Human Services

         OFFICE OF

    INSPECTOR GENERAL





UNPAID CHILD SUPPORT AND INCOME

        TAX DEDUCTIONS





                 @ SERVICE$
           .#+            ha,

          *

          $                      JUNE  GIBBS BROWN

          <                      Inspector General

          %

          ‘b
 $
           %++                          DECEMBER 1996
             %d~a
              >                          OIG-05-95-OO070
                EXECUTIVE                                 SUMMARY


PURPOSE

This review examines a new method to identify noncustodial parents with delinquent
child support obligations who incorrectly claim the Earned Income Tax Credit (EITC),
the rates for head of household tax filing status, tax exemptions related to children no
longer in their custody, or the child care credit.

BACKGROUND

This review was a joint effort between the Office of Inspector General (OIG) and the
Internal Revenue Service (IRS).

Tu Creds and De&dons              Claikned by Noncustodial Parents

The EITC is a refundable tax credit available to the working poor. The credit amount
depends on earnings and the number of children, and rises with earnings until a
maximum is reached. Historically, the EITC enjoyed wide bipartisan support in
Congress as a means to assist the working poor and encourage employment in lieu of
welfare programs.

A taxpayer qualifies as head of household and may use a lower tax rate and a higher
standard deduction if they provide more than half the cost of keeping up the main
home of a child claimed as a dependent. In addition to this dependency test, a
noncustodial parent must pay more than the combined total of any Aid to Families
With Dependent Children paymentsl and resources provided by the custodial parent
in keeping up the home for the child.

Taxpayers are permitted to claim an exemption for their children if they provide half
of their children’s support. The custodial parent is generally assumed to provide the
majority of a child’s total support. However, a noncustodial parent providing support
can sometimes claim a child as a dependent if the custodial parent or the court has
awarded the exemption to the noncustodial parent.

Federal tax laws allow parents a tax credit for some of their child care expenses if the
expenses are necessa~ in allowing them to work or seek employment. Divorced or
separated parents cannot claim credit for child care unless the children are living with
them.




   1   Recent weljhre reform Iegklah”onreplaces the AIWC program with Temponmy Assistance for Needy Families.



                                                      i
cm    Supprt   collections

Annually, State child support agencies forward a list of noncustodial parents who have

not met their child support obligations to the Office of Child Support Enforcement

(OCSE), the Federal ageney responsible for administering the child support

enforcement program, The OCSE reconciles any discrepancies, merges the States’

files, and forwards the national file to IRS. The IRS withholds any tax refund due

these individuals and forwards this money to the States to reduce or eliminate the

child support arrears for these noncustodial parents. In 1994, OCSE sent 3.6 million

cases to IRS.


We decided to test the feasibility of using OCSE data to identify the incorrect claiming

of child custody and support on Federal tax returns. We drew a sample from the 1993

OCSE national file of delinquent noncustodial parents prepared for IRS. The OIG

examined State child support enforcement files for 2,000 randomly selected

noncustodial parents from this list, gathered information from State and local records,

and sent a comprehensive database to IRS for their analysis.



FINDINGS

An administratively simple and coordinated approach between OCSE and IRS ean
help identi& noneustodial parents misrepresenting their children’s living arrangements
on their tax returns.

Children’s Social Security Numbers and related data routinely collected by child
support enforcement agencies, commonly called IV-D agencies, can be used effectively
and efficiently by IRS. In many cases, IV-D agencies are aware of the living
arrangements of children routinely claimed by noncustodial parents on their tax
returns. While it would be prohibitively expensive for IRS itself to collect this data,
IV-D agencies can supply this information simply and inexpensively.

States currently are making efforts to comply with Federal OCSE requirements to
establish certified child support enforcement computer systems by the 1997 deadline.
When certified, State IV-D agencies can systematically identify common data elements
that disclose children’s living arrangements and whether their parents are entitled to
claim them for income tax purposes.

In 32 pereent of the cases reviewed additional tax liabilities resulted from the El’T’C,
tax rates for head of household filing status and/or exemptions that were claimed
immrrectly. These eases result in projeeted additional tax liabilities of $212 million for
1993.

Based on child support data obtained by OIG and the detailed IRS review of the
custodial and noncustodial parents’ 1993 tax returns, we estimate there were over
640,000 cases where noncustodial parents did not meet their child support obligations.


                                            ii
Approximately lin3 of these cases would have resulted inadditional t=liabilities
based on our review. Nationally, IRS and OIG estimate that $212,118,000 in
additional Federal income taxes would have been collected in 1993 had this category
of taxpayers filed correctly.

It is important to note that similar incorrect claims could also be made by a
noncustodial parent not delinquent in child support payments. We limited our review
to those in arrears because there is no readily available data source to examine the
broader universe. Additionally, while outside the scope of this review, this incorrect
Federal tax information is often used in preparing State tax returns, thereby.- depriving
States of tax revenues due them.


RECOMMENDATION

The OCSE and the States should work with IRS to identify data available from State
welfare agencies and child support record systems which would assist in the
identification of inappropriate tax benefits claimed by noncustodial parents.

The OCSE and the States should work with IRS to determine the additional data
needed and available from State welfare agencies and child support records systems.
As State data systems are certified by OCSE, the data exchange with IRS will become
easier and should minimize the staff work involved for child support agencies. Once
States have certified child support enforcement systems, national and uniform
collection of this data can be easily coordinated between these agencies.

Potentikl Savings

It is difficult to make accurate projections because varying assumptions can be applied
to the broader population. However, based on the size of this population, the data
collected here, and other information independently developed by IRS, we believe
there could be total annual tax losses of $1.4 billion or more as a result of
noncustodial parents inappropriately claiming custody of children on Federal income
tax returns. By applying the revenue protection strategy used in this review to identi~
all noncustodial parents, not just the ones known to IV-D agencies, IRS can disallow
incorrect exemptions and tax credits.


AGENCY COMMENTS AND OIG RESPONSE

We received written comments from the Administration for Children and Families
(ACF). The ACF favors delaying system changes pending a possible need for
legislation to permit the data exchange we proposed. However, we feel strongly that
States and OCSE should build the capacity for this exchange while they are developing
new systems. We incorporated other technical changes they suggested into this final
report, where appropriate. Appendix C contains the ACF response.


                                            111
                       TABLE                     OF CONTENTS


                                                                                                                    PAGE


EXECUTIVE SUMMARY


INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


    � IRS   Proposed Adjustments            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..7


    . Child Support Profile ofNoncustodial                  Parents in the Sample              . . . . . . . . . . . . . . 9


RECOMMENDATION                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


APPENDICES


k     Sampling Methodology and Estimation Procedures                           . . . . . . . . . . . . . . . . . . . . A-1


B: Variances and Estimated Confidence Internals                          . . . . . . . . . . . . . . . . . . . . . . . B-1


c     Agency Comments             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1

                                 INTRODUCTION


PURPOSE

This review examines a new method to identify noncustodial parents with delinquent
child support obligations who incorrectly claim the Earned Income Tax Credit (EITC),
the rates for head of household tax filing status, tax exemptions related to children no
longer in their custody, or the child care credit.

BACKGROUND

Earned    hC07’W    Tax Credii

The EITC is a refundable tax credit available to the working poor even if the family
has no tax liability. Until 1994, only working parents with custody could qualify for the
EITC; now a small credit is available for those without dependent children. The
credit amount depends on earnings and the number of children residing at home. The
EITC rises with earnings until a maximum is reached and is phased out as income
increases. After the earnings limit is exceeded, no EITC is payable. (In 1993, working
parents of one child, with earnings under $23,050 could quali& for the EITC.)

Historically, the EITC enjoyed wide bipartisan support in Congress as a means to
assist the working poor and encourage employment in lieu of welfare programs. In
1993, 14.7 million people claimed $15 billion from the EITC. In its current form, it is
expected to credit more than $30 billion annually to poor, working families by the turn
of the century, more than the projected costs of the Food Stamp program, or
Temporary Assistance for Needy Families, which replaces the Aid to Families With
Dependent Children program (AFDC)2.

In October 1994, the General Accounting Office (GAO) issued a report summarizing
problems with noncompliance with EITC requirements. The GAO reported an IRS
statement that 92 percent of questionable electronically-filed returns were returns with
EITC claims. As a result of these problems, IRS began more careful scrutiny of all
tax returns claiming the EITC.

Ta Rates for Head of Howehoki Filing Statur

A taxpayer      who qualifies as head of household may use a tax rate that is lower than
individuals    filing as single or married with separate returns. In addition, heads of
household     receive a higher standard deduction. To use the head of household filing
status, the   taxpayer must be considered unmarried on the last day of the year and


   2    Recent welfare reform legislation replaces the AFDC program with Temporary Assistance for Needy Families.
Throughout this report, we refer to AFDC since that program was in place at the time of our study.


                                                         1
must have provided more than half the cost of keeping up the main home of a child
who lived with the taxpayer for more than 6 months during the year. To achieve head
of household status, a parent must pay more than the total of AFDC payments plus
resources provided by the other parent in keeping up the home for the child. An
unmarried child does not have to qualify as the taxpayer’s dependent in order for the
taxpayer to qualify for head of household filing status.

Tax Exernptiom for Chikiren

The Tax Code generally allows a parent to claim an exemption for a dependent child
if the parent provides half of the child’s total support. Generally, a noncustodial
parent cannot claim children not living with them as dependents since the custodial
parent is assumed to provide the majority of a child’s total support: However, under
certain circumstances a noncustodial parent providing support can claim a child as a
dependent.

Most commonly, the noncustodial parent claims the child as an exemption when:

   �	    the custodial parent agrees, in writing, not to claim the child as a tax
         exemption;    or,

   �	    a pre-1985 divorce decree specifies that the noncustodial parent can claim the
         exemption, and the noncustodial parent contributes at least $600 towards the
         child’s support that year.

It should be noted that subsequent to 1985, no minimum dollar amount is required.
Hence, the noncustodial parent could receive the benefit of a tax exemption even if no
support is provided.

Chikl care credit

Federal tax law allows parents to deduct some of their child care expenses if the
expenses are necessary in allowing them to work or seek employment. Parents can
claim this credit for children under age 13. Divorced or separated parents cannot
claim credit for child care for children not living with them.

cm       Supp?t Coili?ctiom

Title IV-D of the Social Security Act requires noncustodial parents to support their
children by paying periodic child support determined by a court order. Many


     3 Payments made to the mother on behalf of the child under the Aid to Families W2thDependent Children
(AFDC) are n@ considered support provided by the custodial parent.

    4    Typically, the custodial parent completes Form 8332 for IRS. The Form 8332 does not have to be renewed,
but a copy must be submitted with the tax return.
noncustodial parents have their child support automatically withheld from their wages

by their employer. Automatic wage withholding of child support payments began in

1985 on cases in arrears. Since 1989, on all new and modified child support court

orders, employers must withhold child support due from wages of noncustodial

parents. Noncustodial parents who do not have this automatic wage withholding must

make periodic payments to the child support agency themselves.


Despite these requirements, child support enforcement agencies report that $6.1

billion of the $13 billion owed for child support went uncollected in 1993. According

to U.S. Census Bureau data, only 4.5 million of the 6.1 million noncustodial parents

required to pay child support are handled by child support enforcement agencies.


Child support enforcement agencies, commonly called IV-D agencies, fonvard the

collected child support to the custodial parent. In the case of families receiving

AFDC, the first $50 of collected child support is forwarded to the custodial parent5,

with the balance used to partially offset AFDC benefits paid to that family.


Annually, the State IV-D agencies forward lists of noncustodial parents in arrears to

the Office of Child Support Enforcement (OCSE), the Federal agency responsible for

administering the child support enforcement program.b This list includes arrears

carried over from previous years. The OCSE reconciles any discrepancies, merges the

States’ files, and forwards the national file to the Internal Revenue Service (IRS). In

1994, OCSE sent 3.6 million cases to IRS. The IRS withholds any tax refund due

these individuals, deducts costs of collections, and forwards this money to the States to

reduce or eliminate the child support arrears for these noncustodial parents. In 1994,

this joint IRS-OCSE project intercepted over one million tax refunds and recovered

$720 million in overdue child support payments.


METHODOLOGY

This review was a joint effort between the Office of Inspector General (OIG) and

IRS. Both agencies agreed that the major issues to be resolved by this effort would be

limited to:


   �    how many delinquent noncustodial parents incorrectly claim the EITC, child
        care credit, head of household filing status, and exemptions for children;

   �	   what is the extent of loss to the Federal Government                      as a result of these
        incorrect claims; and,




    5
        Beginning in October Z99~ States no longer are required to “@ss through” the first $50 collected.

    6   For AFDC cases, the amount in arrears must be over $150, for non AFDC cases, the amount must exceed
$500.



                                                          -J
  s	   whether it is practical to use OCSE data on delinquent noncustodial parents to
       identify and prevent tax losses that would result from inappropriate claiming of
       child custody and support.

It is important to note that similar incorrect claims could also be made by a
noncustodial parent not delinquent in child support payments. We limited our review
to those in arrears because there is no readily available data source to examine the
broader universe. Additionally, while outside the scope of this review, this incorrect
Federal tax information is often used in preparing State tax returns, thereby depriving
States of tax revenues due them.

The OIG also enlisted OCSE support in gaining State cooperation. The OCSE
provided the tax refund intercept tape. Also, the OCSE sent a letter to the sample-
selected States explaining the joint OIG-IRS efforts and requesting their help. All of
these States cooperated in the project.

Sampling Rocedhres

We initially selected 2,000 child support obligors from lists submitted by the States to
IRS for income tax refund offset, using a two stage random sample. The 1993 tax
refund offset lists were used since they were the most recent lists available at the time
of this review. We first selected eight States (New York, Pennsylvania, Florida,
Georgia, North Carolina, Michigan, Iowa and Texas) with probability proportional to
the number of obligors per State. By accessing the Social Security earnings records
for 1993, we eliminated those obligors with less than $3,000 in earned income. From
among the remaining individuals, we selected 250 per State using simple random
sampling.

We collected detailed case information in the eight States about each obligor selected
(described in the next section.) The IRS was able to identify 1,390 noncustodial
parents for whom 1993 tax returns were filed. This is in keeping with IRS experience
which has found that first, up to 30 percent of taxpayers subjected to offsets fail to file
subsequent returns, second, this is a low income population that may not need to file,
and finally, it is a population that has already demonstrated noncompliance with
Federal rules. Of these noncustodial parents, the IRS reviewed 698 returns where the
noncustodial parent was delinquent for child support in 1993. An additional 344
returns for custodial parents associated with noncustodial cases were identified and
reviewed to determine whether duplicate exemptions were claimed. Of the remaining
692 noncustodial parents, 129 returns were not available and 563 had arrearages from
previous years. See Appendix A for a detailed description of the sampling
methodology.




                                             4

Gatherihg Data

The OIG reviewed child support records at State IV-D offices during April and May
1995. Specifically, recollected  infomation about eve~noncustodial     parent, custodial
parent andchild involved with the case. Redetermined      the amount ofchild support
owed and collected from the noncustodial parent for each child in 1993. We
examined whether the child lived with the noncustodial parent at any time during 1993
and if any events took place that year that would affect child support obligations, like
the child marrying or reaching the age of majority. We traced the custodial parent’s
AFDC status during 1993 as well.

We sent a database with this comprehensive child support information to IRS for their
analysis. The IRS reviewed the tax returns for both custodial and noncustodial
parents and calculated the tax liability based on our four criteria. The results were
used for research purposes only, not for enforcement.

Rojectiom

To account for the sampling plan and provide results that accurately reflect the
distribution of cases in the population studied, all percentages in the report reflect the
proper weighting of the data. This will also be true of the totals presented. When
sample based results are presented, we will identi& them.

Our review was conducted in accordance with the QualdyStandardsfor Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             5

                                 FINDINGS


An administratively simple and coordinated approach between OCSE and IRS can
help identi@ noncustodial parents misrepresenting their children’s living arrangements
on their tax returns.

Children’s Social Security Numbers and related data routinely collected by IV-D
agencies can be used effectively and efficiently by IRS. In many cases, IV-D agencies
are aware of the living arrangements of children routinely claimed by noncustodial
parents on their tax returns. While it would be prohibitively expensive for IRS itself
to collect this data, IV-D agencies can supply this information simply and
inexpensively.

States currently are making efforts to comply with Federal OCSE requirements to
establish certified child support enforcement computer systems by the 1997 deadline.
When certified, State IV-D agencies can systematically identi& many of the data
elements needed to disclose children’s living arrangements and whether their parents
are entitled to claim them for income tax purposes.

In 32 percent of the cases reviewe~ additional tax liabilities resulted from the EITC,
tax rates for head of household filing status and/or exemptions that were claimed
incorrectly. These cases result in projected additional tax liabilities of $212 million for
1993.

Based on child support data obtained by OIG and the detailed IRS review of the
custodial and noncustodial parents’ 1993 tax returns, we estimate there were over
640,000 cases where noncustodial parents did not meet their child support obligations.
Approximately 1 in 3 of these cases would have resulted in additional tax liabilities
based on our review.

Nationally, IRS and OIG estimate that $212,118,000 in additional Federal income
taxes would have been collected in 1993 had this category of taxpayers filed correctly.
The appendices following the body of this report provide details regarding the
projections. The breakout for the adjustment projections is depicted in Table A on
the following page.

The scope of this review was limited to Federal tax loss projections. However, States
also use Federal tax data to calculate State tax liability. Accordingly, these States may
be losing substantial State tax revenues as well.




                                             6

IRS Ikyxwd      Adjwtnwrm

In accomplishing this review, IRS intensively reviewed 698 tax returns (and 344 returns
of related custodial parents) of the 1,390 cases. When possible IRS made side by side
analyses of noncustodial and custodial parents’ returns. The IRS found that 475 cases
appeared to have correctly handled the issues related to the children. The IRS
projected tax adjustments for the 223 remaining returns, 32 percent of the sample
reviewed. The returns with erroneous handling of the child-related issues showed a
total of $233,075 in tax adjustments, equating to an average adjustment of $1,045.

It was apparent from the review that the erroneous dependency exemptions, which
serve as the basis for each of the adjustments described below, were almost entirely
claimed as “Children at Home.” This claim avoids the extra documentation required if
the dependents are claimed “Children Away from Home”. In fact, 88 percent of the
cases resulting in tax adjustments claimed the dependents lived at home in error. This
figure was 98 percent for those claiming the EITC in error, 85 percent for those cases
on AFDC, 95 percent for those with no valid documentation, 96 percent for those
claiming head of household status in error, and 100 percent for those claiming child
care credits in error. It is apparent that the self-reporting compliance features on the
IRS tax forms are not being consistently followed by taxpayers in this population of
child support delinquents.

                                           Table A
                                          Number      Projected     Projected      Percentof
                                          cases+     Population+    Revenues         Total
                                  Total       223        202.703    $212.118.892
 NoneustodialReturns
 Disallow EITC claim.                         119        104,362    $100,371,530       47 %
 Disallow exemptions due to AFDC               96         85,387     $42,949,588       2070
 payments for child.
 Disallow exemption due to lack of             80         75,044     $35,138,845        16 YO
 documentation.
 Disallow head of household status.            78         72,546     $20,777,243        1070
 Disallow child care credit.                    7         5,170”     $2,605,1O9*         1 fzo
 CustodialReturns


 Disallow exemption due to AFDC                29         24,884      $9,688,103        570
 payments for child.
 Deny custodial exemption,                      2         1,675”       $588,466”       <1   70
 noncustodial parent exemption
 allowed.

* The 95 percent confidence interval includes the value O.
+ Due tothepossibility  ofmultiple  adjustments  percase,  thesum oftheindividual
                                                                              values
                                                                                   do not
addtothetotal,

                                               7
EITCAdjmtments

We found that 37 percent of the noncustodial parents whose 1993 tax returns were
reviewed claimed the EITC. However, over 44 percent of those cases who claimed
the EITC, had an error in the amount of the EITC claimed.7 We projected the EITC
adjustments to exceed $100 million based on the number and magnitude of the errors
IRS identified. The EITC errors represent the most significant dollar adjustments
noted in this review. We estimated that the total EITC claimed by this population
exceeded $270 million; thus, at least 37 percent of the total EITC claimed by this
population was in error. The remainder of the EITC which was allowed in this review
was based on children other than those owed the delinquent child support; therefore,
additional EITC errors could exist in the cases.

Adjustments for Parent Exernpticw for Children

Overall, 58 percent of the noncustodial parents (An estimated 375,494 cases) claimed
children for tax exemptions, In 48 percent of these cases, the claim was not allowable
because either the child was supported by AFDC, the child did not live with the
noncustodial parent, or there was no valid evidence allowing the noncustodial parent
to claim the exemption, such as an IRS Form 8332. We also estimate that in over
24,000 cases, custodial parents claimed children for tax exemptions that were
unallowable due to AFDC support.

Adjw~           for Head of Howehokl jiling status

We estimate that in about one-third (over 209,000) of the cases with arrearages in
1993, the noncustodial parents filed using the tax rates associated with head of
household status. In over 34 percent of those cases, noncustodial parents claimed
head of household status erroneously because the children did not live in their
household for more than 6 months. We did not challenge the claim of head of
household status if other children (for example, by a subsequent marriage) were shown
on the return; therefore, overall compliance on this issue can not be determined.

Adjustments for Chiki Care Credits

Although    we looked for noncustodial parents claiming the child care credit incorrectly,
we found     very few instances where this took place. Errors associated with claiming
the child   care credit for the sampled noncustodial children only constitute an
estimated    one percent of the total error amount.




   7
         In their 1994 report, “Earned Income Credit -- Data on Noncompliance and Illegal Alien Recipient% the
General Accounting Ofice estimated that 29 percent of all EITC claims were in ewor. (GA O/GGD-95-27)
ChiM Suppmt Ik@e     of Noncustodial Pare@ in the Sampik

The 1,390 noncustodial parents in our sample paid 66 percent of the $3,388,356 in
child support they owed for their 2,420 children in 1993. On average, they have child
support orders covering 1.47 children, 44 percent of whom receive AFDC payments.
These noncustodial parents averaged $922 in payments of the $1,400 in child support
they owed per child in 1993. Roughly, they paid just $77 of the $117 in child support
they owed each month.

Table B provides the distribution of the cases reviewed, by the reported Adjusted
Gross Income. The figures are projected to the studied population. The data shows
that the majority of the adjustments are in the income catego~ of $5,000 to $14,999
per year.


                                       Table B

     Adjusted

            Gross      Projected    Projected              TaxAdjustments

         Income         Total        Total        Projected Projected Percent

        Category       Number        AGI          Number    Amount    ofAGI

               Total    640,162 $11,206,393,398 202,704 $212,118,8921.9%

       $1-$4,999        36,204      $146,600,226     5,885     $2,562,670 1.7%

     $5,000-$14,999 285,957        $2,819,643,842 91,103 $117,022,636 4.2%

     $15,000-$24,999 198,877       $3,892,242,070 65,494      $61,962,027 1.6%

     $25,000-$34,999 69,386        $2,052,079,020 23,452      $16,913,046 0.8%

        $35JIOO+        49,738     $2.295,828.240 16.770      $13.658.513 0.6%





                                          9

                    RECOMMENDATION


Over the years, IRS offset of income tax refunds recovered millions in unpaid child
support, benefiting children, custodial parents, State IV-D agencies and the Federal
Government. The IRS/OCSE/State partnership should be reviewed to determine the
feasibility of expanding the exchange of information so that noncustodial parents not
meeting their child support obligations cannot benefit from their delinquency when
they file their income tax returns.

Besides IRS collections increasing as a result of fewer incorrect claims for the EITC,
head of household, exemptions, and child care, we believe child support enforcement
may be enhanced as a result. Some noncustodial parents may be deterred from falling
behind in child support payments if they realize that IRS scrutiny of their tax returns
will increase.

At present, taxpayers in this population of child support delinquents do not
consistently provide the accurate, self-reporting compliance data required on the IRS
tax forms. This speaks for the need of an IRS return processing mechanism to protect
government revenue. In the absence of timely and effective data sharing, these
parents may continue to claim they are providing support for their children (44
percent of whom receive welfare), or otherwise claim certain tax advantages that IRS
cannot easily verify or disprove.

THE OCSE AND THE STATES SHOULD WORK WITH IRS TO IDENTIFY
DATA AVAILABLE FROM STATE WELFARE AGENCIES AND CHILD
SUPPORT RECORD SYSTEMS WHICH WOULD ASSIST IN THE
IDENTIFICATION OF INAPPROPRIATE TAX BENEFITS CLAIMED BY
NONCUSTODIAL PARENTS.

The identification of additional data that would be useful to the IRS would improve
the collection of delinquent child support. However, for this proposed exchange to be
effective, it must be fair and work to the mutual benefit of both the Department of
Treasury and the Department of Health and Human Services (DHHS). For example,
once the data elements have been identified and the appropriate system approved and
in place, OCSE could provide the data for IRS enforcement purposes without charge.
The IRS, in turn, could provide tax refund offset services using OCSE data without
charge. In this fashion, both Departments could economically meet their fiscal
collection obligations.

Some examples of data that IRS will need to identi& incorrect returns include the
custodial parent’s Social Security Number (SSN), the child’s SSN, welfare status and
amounts, and the child support owed and paid by a noncustodial parent in a calendar
year. This data already is available routinely now to the State IV-D agencies, and will
be an integral part of the OCSE-designated certified data systems scheduled to be
fully operational by October 1, 1997,


                                           10
As State data systems are certified by OCSE, the data exchange with IRS will become
easier and should minimize the staff work involved for child support agencies. Once
States have certified child support enforcement systems, national and uniform
collection of this data can be easily coordinated between the two Departments.     The
OCSE will generate data to assist the IRS in identifying tax filers claiming dubious
exemptions or head of household status.

Potential Savin@

We estimate a potential 1 year savings of just more than $212 million based on our
results. According to data provided by the Bureau of the Census, there were
approximately 6.1 million noncustodial parents with court orders for child support in
1991. Based upon this, the data collected here and other information independently
developed by IRS, we believe there could be total annual tax losses of $1.4 billion or
more as a result of noncustodial parents inappropriately claiming custody of children
on Federal income tax returns.

Whether this amount, or any fraction of this money, can be collected will depend on
many factors. For instance, since most of the cases involve low income tax payers, it
may not be effective to conduct audits and attempt to collect taxes due. The most
cost efficient revenue protection strategy would be to intercept a tax refund, if one
exists. We recognize that our projection may overestimate the actual amounts that are
available to be collected using this method.

However, the amounts we project may also represent a lower limit. For one thing, we
only reviewed a population of noncustodial cases that have, or had, arrears at one
time, and were above the IRS intercept dollar thresholds. The larger population of
noncustodial parents may also include inappropriate claims like we found. For
example, a non custodial parent not delinquent in paying child support could falsely
claim the child as a dependent. This could happen if the child is not residing in the
taxpayer’s home. Furthermore, we did not verify the validity of other children in the
household. In addition, IRS only reviewed tax returns for cases with arrears for 1993.
About half the cases in the sample did not have arrears for that specific year and may
represent additional errors should they be reviewed. Also, the knowledge that tax
returns claiming the EITC are subject to this level of review may provide a sentinel
effect for this population. Although no funds may be collected in the first year of such
scrutiny, subsequent filings may be more accurate and we thus avoid future losses.

With the recent passage of the Personal Responsibility and Work Opportunity
Reconciliation Act (Act), Congress established a Federal Case Registry of Child
Support Orders (Section 311 of the Act). This regist~ will include a minimum set of
data as prescribed by regulations established by the Secretary of DHHS. With the
proper data elements outlined here, and by applying the revenue protection strategy
used in this review to identify all noncustodial parents, not just the ones known to
IV-D agencies, IRS could use this data to disallow incorrect exemptions and tax
credits. In doing so, we believe that additional annual tax loses can be prevented. (It


                                           11
should be noted that any pending legislation would need to be reviewed to insure that
it presents no legal impediments to IRS access to the data for this purpose.)

In any event, this review demonstrates the feasibility of an administrative approach to
increase tax compliance without the need for extensive and expensive IRS auditing.
Besides potentially saving substantial funds for the U.S. Treasury, we believe we have
found an economical incentive to increase child support payments and enhance
responsible behavior by noncustodial parents.

Agency Response

In their response to our draft report, staff from the Administration for Children and
Families (ACF) provided a number of technical corrections and other suggestions.
Where appropriate, we incorporated these changes into this final report.

The ACF referred us to recommendations in a 1996 Office of Management and
Budget’s Benefit Systems Review Team report. These recommendations suggest that
any system changes calling for matches, such as proposed here, be delayed until after
implementation of the expanded Federal Parent Locator System.

We defer to IRS as to whether legislative action may be necessary to allow the IRS to
obtain custodial data in a revenue protection program. However, we believe that
action to pursue such legislation and to make any necessary adaptations to the Federal
Parent Locator system or any other data system should take place as soon as possible.
Once States and OCSE implement new data collection systems, it may be a very
difficult, costly, and lengthy process to change the components of those systems. A
better approach is to incorporate identified needs at the design stage and save future
costs as well as the inevitable inertia that accompanies ad hoc system changes.

A key element in the design of all the underlying data systems is the inclusion of the
SSN of each child for whom child support payments have been ordered. It is crucial
that this data element be included to perform the matches that will be needed--not
only to prevent inappropriate income tax deductions which we have described in this
report, but for other potential matches that might be designed in the future to help in
the child support collection process. This step alone would go a long way to insuring
the feasibility of efficacious data matches in the future, but if not tended to now, could
forestall important matches for many years to come.

We have identified a substantial loss to the U.S. Treasury as a result of this lack of
custodial data for IRS. The sooner we can halt these losses, the sooner we can boost
the integrity of the EITC program. Finally, by halting these inappropriate deductions
and credits, non custodial parents will be encouraged to fulfill their child support
obligations.




                                            12

             APPENDIX         A

SAMPLING METHODOJX)GY AND ESTIMATION PROCEDURES




                      A-1
To identi& noncustodial parents, in arrears for their child support payments, we

obtained the 1993 Office of Child Support Enforcement (OCSE)/Internal Revenue

Service (IRS) Tax Offset file. This file is generated by the OCSE from data provided

by the States. This file provides IRS with the means to identi~ individuals who are

delinquent in child support. The IRS intercepts any Federal income tax refunds to

offset arrearages in child support payments. The cases are identified by their Social

Security Numbers and were verified as present on the IRS Master File.


There were 3,282,960 cases listed on the Tax Offset file. However, since a

noncustodial parent may be identified as delinquent in more than one State or

multiple times within a State, we created an unduplicated count by consolidating

occurrences of the same SSN within the database. This left us with 2,762,398

unduplicated Social Security Numbers. Based on the unduplicated counts in each

State, we then drew a sample of eight States with probability proportional to size using

the Rao-Hartley-Cochran    method (RAO).8 These eight States produced a list of

937,534 unduplicated SSNS. We then submitted this list of SSNS to the Social Security

Administration to determine the earned income associated with each of these SSNS for

1993. All individuals with less than $3,000 in earned income were eliminated as these

individuals were considered unlikely to file a tax return. The results of this procedure

are presented in the following table.


                                                 Table 1
                          TotalNumber of         NumberwithEarned                    Proportion

                                                                                              with

                          Caseson Offset Pereent Incomeof$3,000+                     $3,000+Earned

           State               File      ofTotal   (Source:

                                                          SSA)                          Income

       Texas
                      132,901       4.81%                   92,715                69.76%
       Iowa
                        43,970       1.59%                   34,703                78.92%
       Georgia
                     74,323       2.69%                   51,713                69.58%
       Pennsylvania
               134,776       4.88%                   87,970                65.27%
       Florida
                    126,742       4.59%                   85,912                67.78%
       Michigan
                   204,076       7.39%                  145,594                71.34%
       NorthCarolina
               62,950       2.28%                   57,440                91.25%
       New York
                   157,7%        5.71%                   79,070                50.11%
           Total
                  937,534      33.9470                 635,117                67.74%
               Total

       Population
               2,762,398                            1,871,200

Overall, roughly two-thirds of the unduplicated cases were found to have a reported
earned income of over $3,000. For purposes of our projections, we are accounting for



   8
         CochrW W?G. (1977). Somulin~ Technimes. John UWey and Sons, New York third editio~ p.266


                                                  A-2
approximately 1,871,200 noncustodial parents appearing on the refund offset file
produced by OCSE.

At the second stage of sampling, we drew a simple random sample of 250 Social
Security Numbers from each of the eight selected States. Each of these represents a
case for our purposes. For each of the individuals associated with each number, we
went to the appropriate State or local Child Support Enforcement Office and
obtained, among other data, the name and Social Security Number of all custodial
parents and children associated with each noncustodial parent and information on the
arrears related to 1993. Therefore, each case selected for this review will have one
noncustodial parent, one or more custodial parents and one or more children included
in the case file. All results, including any estimated potential losses, are calculated on
a case basis. The results of this second stage sampling are presented in Table 2.
                                           Table 2
                                                   SSNS          Returns         Returns
                               State             Sampled          Found         Reviewed
                    Texas
                             250             179              140
                    Iowa
                              250             172               67
                    Georgia
                           250             178               84
                    Pennsylvania
                      250             184               72
                    Florida
                           250             166               72
                    Michigan
                          250             171               77
                    North Carolina
                    250             164              113
                    New York
                          250             176               73
                             Total                   2,000           1,390             698

The data gathered from the case files was automated and given to the National Office
for Research and Analysis, Office of Tax Compliance, IRS. The IRS reviewers located
1,390 of the 2,000 returns called for. They reviewed the 1993 tax returns for each
noncustodial parent and all corresponding custodial parents where the parent had
child support arrears related to 1993. A total of 698 cases out of the 1,390 met this
criteria. For the 698 cases where tax returns were reviewed for the noncustodial
parent, an additional 344 tax returns for the custodial parent were identified, found
and reviewed.

Projections were made appropriate to the sampling methodology using the Two-stage
RHC subroutine from the RAT-STATS Statistical Software.g


   9
          Department of Health and Human Services, Ofice of Inspector General, Ojj%e of Audit Services, RAT-STATS
Statktical Software.


                                                     A-3

           APPENDIX         B

VARIANCE AND ESTIMATED CONFIDENCE INTERVALS




                   B-1
                                          Variancesand EstimatedConfidenceIntervals

    Foreachoftheestimated
                       totals
                            presented                              thestandarderrors and the95 percent
                                   inTable A in the report,we provide                                confidence

                                                                                                             intervals.
                 anestimate
    We alsoprovide                   ofthese
                         oftheprecision      totals.Theprecisionisdefined
                                                                        asthesemi-width  oftheconfidence
                                                                                                       internal
                                                                                                             asa percent

    oftheestimate.


                                                                                      95 % Confiden@Interval

                 Class

                     ofError
                 Estimate       Standard

                                                                    Error      LowerLimit          UpperLimit      Precision

     NonCustodialParentsReturnx

     Disallow

            EITC claims.
                     $100,371,530       27,246,178       $46,970,111       $153,772,948     53.2%
w    Disallow       duetoAFDC

            exemptions
                        $42,949,588        6,289,626       $30,621,921        $55,277,255     28.7%
I

N    payments.

    Disallow
           exemption

                   duetolackof
                $35,138,845        9,284,912       $16,940,417        $53,337,273     51.8%
    documentation.

     Disallow
            headofhousehold

                          status.
             $20,777,243       4,460,100        $12,035,625        $29,518,861     42.1%
           child

    Disallow   carecredit.
                     $2,605,109        1,632,034           ($593,678)      $5,803,896    1228%

           ParentaRe-
    Custodial


    Disallow
           exemption

                   duetoAFDC payments.          $9,688,103       3,148,093            $3,517,841     $15,858,365     63.7%

    Disallow
           custodial
                  exemption,

                          noncustodial           $558,466          489,614            ($401,177)      $1,518,109    171.8%

    exemption

            allowed.

APPENDIX       C

 AGENCY COMMENTS




      c-1
       ,. .-
           *“IQ,




       4<
 *0+               %

~’
:                        DEPARTMENT OF HEALTH& HUMAN SERVICES
,8
 %.wdm
                                                                      ADMINiSmATKIN FORCHILDREN             ANDFAMILIE:
                                                                      Office of the AssistantSecretary,,Suite 600
                                                                      370 L’Enfant Promenade, S.Vd
                                                                      WasWwton, D.C.20447

                       September     24, 1996


                       TO:	          June Gibbs  Brown
                                     Inspector  General

                       FROM :        Mary Jo Bane
                                     Assistant    Secretary
                                        for Children     a

                       SUBJECT :	 OIG Draft  Report  C~Unpaid Child   Support     and   Income     Tax
                                  Deductions, ’’-(O105z95900070)O)      ‘-



                       Thank you for the opportunity   ‘to respond
 to your draft report              of

                       findings concerning  unpaid Child Support
 and Income Tax

                       Deductions.   If you have questions,   please contact David Ross               of

                       my staff at (202) 401-9370.


                       General     Comments:


                       This draft report presents findings that cross-matching   data

                       sources to identify federal tax-filing  errors among noncustodial

                       parents in child support cases can yield savings to the federal

                       treasury.


                       We would defer to the Department   of the Treasury, and especially

                       the Office of the Assistant  Secretary for Tax Policy, in

                       estimating  the impact of the proposed course of action on the

                       federal treasury.


                       From a timing standpoint,  we would also note, as referenced

                       below, the views of the Benefit Systems Review Team convened                 by       .

                       the Office of Management  and Budget.


                       Technical     Comments:


                       Page iii says the annual IRS offset file may have to be expanded

                       to accommodate  IRS needs.
 We recommend the report delete

                       specific reference to the
 IRS tax offset file and not specify the

                       means by which IRS obtain
 these data.    Further research i.s needed

                       on the restrictions  on use
 of data in State and Federal Case

                       Registries,  and in Federal
 New Hire provisions  of statute, before

                       these data sources should
 be promoted.


                       Page iii also says that legislation    now pending i.n Congress

                       includes establishing   a national registry of child support court

                       orders.   When the final report is updated to reflect passage of

                       the Personal Responsibility    and Work Opportunity Reconciliation



                                                              c-2
 Page    2 - June        Gibbs     Brown

Act (PRWORA), we ask that  you note that  data of use to IRS reside
in the State Child Support Case Registries    -- which includes non-
IV-D cases -- not necessarily  the Federal Case Registry.

Section 316 (f) of PRWORA gives the Secretary of the Treasury
access to information  in the National Directory of New Hires for
the purposes of administering  section 32 of the Internal Revenue
Code of 1986 (the advance payment of the earned income “tax credit
under section 35o7 of such Code, and verifying a claim   with
respect to employment  in a tax return) .

 The Office        of Management            and Budget        issued      a report      by the
 Benefit      Systems       Review      Team (BSRT),          Inmrovinq       the Coordination              of

.Government        Information          Resources,         (June 1996) .          In Chapter         4:

 Data Resources          --The    Tools      to Fight       Fraud and Reduce            Error,       the

 BSRT noted        that     the National         Directory         of New Hires         and the

 companion       Federal       Case Registry,           are powerful         tools      to ensure

 payment      accuracy        and maintain         overall       program      integrity        in

 Federally-sponsored              income       maintenance,         annuity,       disability

 benefit,      and student          loan programs.             The BSRT recommended                that

 the FPLS consider             permitting        Federally-sponsored               income      support

 programs      with     the opportunity            to verify        their    benefit        payments

 and debt      collection         efforts       with data contained              in Expanded          FPLS.

 The report       noted      that     the recommendation              should     be considered            for

 legislative        action      after      the initial         Directory       has been

 implemented        and should          be given      careful       congressional

deliberation,           similar       to the review          given     by Congress          to proposed

modifications           to access        to IRS databases.


Page 2 says income withholding by employers began in 1989.   In

1985, states were required to withhold earning for arrearages

equal to one month~s worth of support, or less, and in IV-D

cases, they were to do so without returning to court to file a

withholding order. In 1989, in all new and modified IV-D orders,

withholding was required whether there was an arrearage or not.
Exceptions were permissible where the parties agreed otherwise or

a court found good cause to waive the withholding requirement.     - -





                                                          c-3
